OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION




    Fiscal Year 2011 Afghanistan Infrastructure Fund
    Projects Are behind Schedule and Lack Adequate
                   Sustainment Plans




                                   July 30, 2012




SIGAR Audit-12-12 Infrastructure
                 SIGAR
                                                            SIGAR Audit-12-12                                                                   July 2012
                                                                    Fiscal Year 2011 Afghanistan Infrastructure Fund
                                                                    Projects Are behind Schedule and Lack Adequate
Special Inspector General for Afghanistan Reconstruction                           Sustainment Plans
What SIGAR Reviewed
In the fiscal year 2011 National Defense Authorization Act, Congress created the Afghanistan Infrastructure Project (AIP) to allow
the Department of Defense (DOD) and Department of State (State) to combine resources to develop and carry out infrastructure
projects in Afghanistan that are explicitly linked to the U.S. counterinsurgency (COIN) effort. The U.S. Agency for International
Development (USAID) is the implementing agency for State, and U.S. Forces-Afghanistan (USFOR-A) is the implementing agency
for DOD. USAID executes its projects through contracts, while USFOR-A executes projects through contracts managed by the U.S.
Army Corps of Engineers (USACE). Legislative provisions related to AIP require implementing agencies to show how they will
sustain projects and report to Congress before and after obligating, disbursing, or transferring funds for AIP projects. This report
determines the extent to which (1) AIF-funded projects were implemented on schedule and achieving planned COIN effects; (2)
DOD, State, and USAID addressed project sustainment costs and other sustainment challenges; and (3) agencies coordinated and
jointly managed AIP.
To accomplish these objectives, SIGAR obtained data and met with officials from DOD, State, USAID, and the Asian Development
Bank. SIGAR limited the scope of the audit to execution, administration, and oversight of the AIP and fiscal year 2011 AIF projects
that were ongoing or planned for implementation as of January 1, 2012. SIGAR conducted work from November 2011 to June 2012
in Washington, D.C., and in Kabul and Kandahar, Afghanistan, in accordance with generally accepted government auditing standards.

What SIGAR Found
More than 10 years after international intervention in Afghanistan, the U.S. government, the international community, and the Afghan
government continue to face challenges in implementing programs to build basic infrastructure, particularly those efforts aimed at
providing power to the largest cities and most critical areas in Afghanistan. For example, five of seven fiscal year 2011 AIF projects
are 6-15 months behind schedule, and most projects may not achieve desired COIN benefits for several years. Acquisition and
funding delays postponed the project execution schedules of most fiscal year 2011 AIF projects, including all power sector projects,
except the Kandahar Bridging Solution. In addition, although DOD, State, and USAID made efforts to identify potential COIN
benefits of fiscal year 2011 AIF projects, the scale of most projects means that these agencies will not achieve the planned
contributions to the COIN strategy described in the fiscal year 2011 congressional notification for several years. Further, in some
instances, these projects may result in adverse COIN effects because they create an expectations gap among the affected population or
lack citizen support.
DOD and State did not ensure the sustainability of fiscal year 2011 AIF projects. For example, although implementing agencies
produced sustainment plans for each fiscal year 2011 AIF project, as required, these plans did not define project sustainment costs,
and agencies did not communicate such costs to the Afghan government. Moreover, in some cases—such as the Kandahar Bridging
Solution and the Southeast Power System projects—the sustainment of fiscal year 2011 AIF projects relies on the completion of
additional projects that remain unidentified, unfunded, or have projected completion dates well beyond 2014. Because agencies did
not develop adequate sustainment plans, and project sustainment relies on Afghan entities with questionable capacity and on
unidentified and unfunded projects or projects with completion dates beyond 2014, the U.S. government does not have reasonable
assurance that projects implemented using fiscal year 2011 AIF funds will be sustained after completion.
Agencies are developing mechanisms for joint project management. However, the lack of comprehensive and shared project
information and unclear guidance on agency roles in project execution limit congressional oversight and interagency coordination.

What SIGAR Recommends
SIGAR is recommending 9 actions to better define the AIP, enhance joint decision making, coordination, and oversight among U.S.
government agencies implementing AIP projects, help ensure the successful and timely development of Afghanistan’s power sector,
and increase the likelihood that AIP projects achieve program goals specifically related to COIN and are sustained upon completion.
SIGAR is also recommending actions to help ensure the timely completion of congressional notifications and reports, as well as the
timely receipt or transfer of appropriated funds. When preparing the final report, SIGAR considered comments on a draft report from
State, the U.S. Embassy Kabul, USAID, USFOR-A, and the Office of the Secretary of Defense (OSD). State, the U.S. Embassy
Kabul, and USAID generally concurred with the recommendations. USFOR-A responded to eight recommendations, concurred or
partially concurred with seven and did not concur with one. OSD responded to eight recommendations, concurred or partially
concurred with five and did not concur with three. Comments from all five agencies are reproduced in appendices V-IX.
                       For more information contact: SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                 Special Inspector General for Afghanistan Reconstruction
                                                                                           Main: 703-545-6000
                                                                                   1550 Crystal Drive, 9th Floor
                                                                                                 Arlington, VA
          John F. Sopko, Special Inspector General                                               www.sigar.mil


July 30, 2012

The Honorable Hillary Rodham Clinton
Secretary of State
The Honorable Leon E. Panetta
Secretary of Defense
The Honorable James B. Cunningham
U.S. Ambassador to Afghanistan
General John R. Allen
Commander, U.S. Forces – Afghanistan, and
  Commander, International Security Assistance Force
Dr. S. Ken Yamashita
USAID Mission Director for Afghanistan


This report discusses the results of the Office of the Special Inspector General for Afghanistan Reconstruction’s
(SIGAR) audit of the Afghanistan Infrastructure Program and Fund. This program is intended to leverage and
coordinate Department of Defense and Department of State resources for large-scale infrastructure projects in
Afghanistan. However, several fiscal year 2011 projects are 6 to 15 months behind schedule, and sustainment
plans are incomplete. This report includes 9 recommendations to the Secretary of Defense, Secretary of State,
the Commander of U.S. Forces-Afghanistan (USFOR-A), the U.S. Ambassador to Afghanistan, and the U.S.
Agency for International Development (USAID) Mission Director in Afghanistan to improve the
implementation and oversight of U.S. funding for Afghanistan infrastructure projects.

We considered comments from the Department of State, the U.S. Embassy in Kabul, USAID, USFOR-A, and
the Office of the Secretary of Defense (OSD), which are reproduced in appendices V-IX. OSD believes that the
audit report is premature and strongly disagrees with many of our findings and conclusions. We conducted the
audit early in the program’s implementation so that opportunities for improvement could be identified and
addressed prior to the withdrawal of U.S. and coalition troops. In addition, we conducted our work in
accordance with generally accepted government auditing standards, which require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions.
We believe that the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

SIGAR conducted this performance audit under the authority of Public Law No. 110-181, as amended; the
Inspector General Act of 1978; and the Inspector General Reform Act of 2008.




John F. Sopko
Special Inspector General for Afghanistan Reconstruction

                       Mailing Address: 2530 Crystal Drive, Arlington VA 22202-3940
TABLE OF CONTENTS

Background ................................................................................................................................................... 2
Most Fiscal Year 2011 AIF Projects are 6-15 Months Behind Original Schedule
   and Some Projects May Not Achieve Desired COIN Effects ................................................................ 4
DOD, State, and USAID Did Not Calculate Sustainment Costs or Otherwise
  Ensure Sustainability .............................................................................................................................. 8
Congressional Oversight and Interagency Coordination Are Limited by Lack of
   Shared Information and Master Plan for Energy Sector....................................................................... 11
Conclusions ................................................................................................................................................. 14
Recommendations ....................................................................................................................................... 14
Agency Comments ...................................................................................................................................... 16
Appendix I: Scope and Methodology ........................................................................................................ 19
Appendix II: Fiscal Year 2011 and 2012 Afghanistan Infrastructure Fund Project
   Nomination and Approval Process ....................................................................................................... 21
Appendix III: Planned Contribution to Counterinsurgency Strategy of Fiscal
   Year 2011 Afghanistan Infrastructure Fund Projects ........................................................................... 22
Appendix IV: Required Reports and Fiscal Year 2011 Congressional
   Notification Timeline ........................................................................................................................... 23
Appendix V: Comments from the Department of State ............................................................................. 25
Appendix VI: Comments from the U.S. Embassy Kabul .......................................................................... 27
Appendix VII: Comments from the U.S. Agency for International Development .................................... 32
Appendix VIII: Comments from the U.S. Forces Afghanistan .................................................................. 40
Appendix IX: Comments from the Office of the Secretary of Defense ..................................................... 48


TABLES

Table 1: Fiscal Year 2011 AIF Projects (dollars in millions) ....................................................................... 4
Table I: Planned COIN Contributions of Fiscal Year 2011 AIF Projects ................................................... 22
Table II: Required Congressional Notifications and Reports for AIP and AIF ......................................... 23


FIGURES

Figure 1: Fiscal Year 2011 AIF Estimated Project Execution Schedules ..................................................... 5
Figure I: Fiscal Year 2011 AIF Project Nomination and Approval Process ............................................... 21
Figure II: Timeline for Congressional Notification of the Fiscal Year 2012 AIF
    Project List ........................................................................................................................................... 24




SIGAR Audit-12-12 Infrastructure                                                                                                                       Page i
ABBREVIATIONS AND ACRONYMS

AIF                       Afghanistan Infrastructure Fund
AIP                       Afghanistan Infrastructure Program
ADB                       Asian Development Bank
CENTCOM                   United States Central Command
CERP                      Commander’s Emergency Response Program
CBJ                       Congressional Budget Justification
COIN                      Counterinsurgency
DABS                      Da Afghanistan Breshna Sherkat
DOD                       Department of Defense
ESF                       Economic Support Fund
EWG                       Executive Working Group
GAO                       Government Accountability Office
IWG                       Infrastructure Working Group
JPC                       Joint Program Committee
JPDT                      Joint Project Delivery Teams
MATOC                     Multiple Award Task Order Contract
MW                        Megawatts
NEPS                      Northeast Power System
OSD                       Office of the Secretary of Defense
PJC                       Provincial Justice Center
SECDEF                    Secretary of Defense
SECSTATE                  Secretary of State
SEPS                      Southeast Power System
SIGAR                     Special Inspector General for Afghanistan Reconstruction
State                     Department of State
USFOR-A                   United States Forces-Afghanistan
USACE                     U.S. Army Corps of Engineers
USAID                     U.S. Agency for International Development




SIGAR Audit-12-12 Infrastructure                                                     Page ii
     Fiscal Year 2011 Afghanistan Infrastructure Fund Projects Are behind
                Schedule and Lack Adequate Sustainment Plans


In the 10 years since the United States began committing resources to rebuild Afghanistan, Congress has
appropriated more than $89.4 billion for the reconstruction effort. At the end of 2003, the United States
government shifted its resources from a focus on humanitarian relief to programs aimed at establishing
the rule of law, improving governance, building infrastructure, and increasing access to health and
education. Since then, the United States has spent billions of dollars to build or rehabilitate key physical
infrastructure—a critical aspect of the U.S. transition strategy—in areas such as security, transportation,
and energy. In fiscal year 2011, Congress appropriated $400 million to the Department of Defense
(DOD) to create the Afghanistan Infrastructure Fund (AIF) in support of the Afghanistan Infrastructure
Program (AIP) and appropriated an additional $400 million for the AIF in fiscal year 2012 to continue
AIP support. A viable infrastructure is intended to help curb Afghan reliance on foreign logistics and
capacity, provide economic alternatives to insurgency involvement, diminish the vulnerability of the
Afghan people to violent extremists, and support the U.S. civil-military campaign and counterinsurgency
strategy for Afghanistan.

Our previous audits of infrastructure projects implemented by the U.S. government—primarily the U.S.
Army Corps of Engineers (USACE), the U.S. Agency for International Development (USAID), and the
Air Force Center for Engineering and the Environment—identified problems with infrastructure programs
resulting from insufficient planning and inadequate contract management and oversight, particularly in
areas that are not secure. 1 Moreover, a congressional hearing on Afghanistan reconstruction contracts
revealed concerns with the adequacy of AIF project sustainability assessments. 2

In addition, for several years we and others have noted that DOD and the United States Forces-
Afghanistan (USFOR-A) were not using Commander’s Emergency Response Program (CERP) 3 funds as
intended. 4 Although CERP was created to fund small-scale projects to offer commanders in the field
immediate counterinsurgency (COIN) benefits, 5 it often funded large-scale, longer-term infrastructure
projects. In the fiscal year 2011 National Defense Authorization Act 6 and subsequent appropriating
legislation, 7 Congress reduced DOD’s CERP appropriation by over $400 million, placed a $20 million
cap on the dollar amount of individual CERP projects, and created the AIP to address large-scale
infrastructure needs in support of the COIN strategy.

We conducted this audit early in the life of the program so that any problems or opportunities for
improvement could be identified and addressed prior to the impending withdrawal of U.S. and coalition
troops. This audit assessed the extent to which (1) AIF-funded projects were implemented on schedule

1
 Recurring Problems in Afghan Construction, SIGAR Testimony before the Commission on Wartime Contracting,
January 24, 2011.
2
  Unofficial transcript of June 30, 2011, Hearing on Afghanistan Reconstruction Contracts by the Senate Homeland
Security and Governmental Affairs, Subcommittee on Contracting Oversight.
3
  CERP is a DOD program managed by USFOR-A that enables commanders to fund humanitarian relief and
reconstruction projects to immediately assist indigenous populations.
4
  IBID; Commander’s Emergency Response Program in Laghman Province Provided Some Benefits, but Oversight
Weaknesses and Sustainment Concerns Led to Questionable Outcomes and Potential Waste, SIGAR Audit 11-7,
January 27, 2011; U.S. Embassy Kabul and U.S. Forces-Afghanistan Consolidated Policy for Executing Afghanistan
Infrastructure Fund Procedures, February 18, 2010.
5
  Joint doctrine defines an insurgency as an organized movement aimed at the overthrow of a constituted government
through the use of subversion and armed conflict. Counterinsurgency is military, paramilitary, political, economic,
psychological, and civic actions taken by a government to defeat insurgency.
6
  P.L. 111-383 §1212, 1217, Ike Skelton National Defense Authorization Act for Fiscal Year 2011, January 7, 2011.
7
  P.L. 112-10, Department of Defense and Full-Year Continuing Appropriations Act, 2011.
SIGAR Audit-12-12 Infrastructure                                                                            Page 1
and achieved planned COIN effects, (2) DOD, State, and USAID addressed project sustainment costs and
other sustainment challenges, and (3) agencies coordinated and jointly managed the AIP.

To accomplish these objectives, we obtained and analyzed data and information from, and met with,
officials from DOD, State, USAID, and the Asian Development Bank (ADB). 8 We limited the scope of
the audit to the execution, administration, and oversight of the AIP and fiscal year 2011 AIF projects that
were ongoing or planned for implementation as of January 1, 2012. We conducted work from November
2011 to June 2012 in Washington, D.C., and in Kabul and Kandahar, Afghanistan, in accordance with
generally accepted government auditing standards. Appendix I provides a more detailed discussion of our
scope and methodology.


BACKGROUND

AIP was designed to be the vehicle that would allow DOD and State to combine resources to develop and
carry out infrastructure projects in Afghanistan that are explicitly linked to the COIN effort. To support
this objective, Congress created the AIF and appropriated $400 million to DOD’s fiscal year 2011
operations and maintenance budget for the program. 9 In a joint explanatory statement by the armed
services committees, in addition to AIF, Congress noted that State planned to fund AIP projects by
reprogramming existing foreign assistance resources to support large-scale infrastructure projects deemed
critical to supporting the civil-military campaign in Afghanistan. 10

According to the fiscal year 2011 National Defense Authorization Act, 11 infrastructure projects authorized
under the AIP may include water, power, transportation, and other projects in support of the COIN
strategy in Afghanistan. 12 According to joint guidance for implementing AIP issued by DOD and State,
13
   power projects may include repairing, restoring, or improving electrical production, transmission, and
distribution infrastructure and limited sustainment costs; transportation projects may include building or
repairing transport networks such as roads, railways, canals, pipelines, nodes or terminals; and water
projects may include funding watershed studies and building or repairing infrastructure such as major
dams, irrigation, wells, sewage treatment, waste disposal, and water supply. Other AIP activities may
include but are not limited to education, rule of law, governance, and economic development.

Authorizing legislation requires AIP projects to be jointly developed and approved by DOD and State,
and implemented by State, in coordination with DOD (see appendix II for further detail on project and
vetting approval for AIF-funded projects). However, State and DOD may jointly determine that DOD
should implement a project. According to project evaluation criteria outlined by DOD, State, and
USAID, fiscal year 2011AIF projects were selected based on the following criteria:

        •    fulfillment of fiscal year 2010 commitments;
        •    the extent to which projects support Afghanistan’s infrastructure priorities;
8
  ADB is the lead donor organization in Afghanistan’s energy sector, and, in conjunction with the Afghan
government, is developing the master plan for Afghanistan’s energy sector.
9
  P.L. 112-74, 125 Stat. 786, 842 (Dec. 23, 2011), appropriated another $400 million for AIF, bringing the current
total AIF appropriation to $800 million.
10
   Joint Explanatory Statement of the Committees on Armed Services of the U.S. Senate and House of
Representatives on H.R.6523, Ike Skelton National Defense Authorization Act for Fiscal Year 2011, December 22,
2010.
11
   P.L. 111-383 §1217.
12
   FM 3-24 MCWP 3-33.5 Counterinsurgency, Headquarters Department of the Army, December 2006, outlines U.S.
COIN doctrine and provides the principles and guidelines for COIN operations, including the U.S. strategy in
Afghanistan. The U.S. COIN strategy in Afghanistan calls for a four-phase approach—assess, clear, hold, and build.
13
   U.S. Embassy Kabul and U.S. Forces-Afghanistan Consolidated Policy for Executing Afghanistan Infrastructure
Fund (AIF) Procedures, February 18, 2010.
SIGAR Audit-12-12 Infrastructure                                                                           Page 2
         •   inclusion of key terrain districts 14 and support from Regional Commands and Regional
             Platforms;
         •   the extent to which projects support the COIN strategy, complement the State and USAID
             development strategy, and make progress toward transition; and
         •   executability of the project and likelihood of completion by 2014. 15

DOD and State initially determined the lead U.S. government agency responsible for implementing fiscal
year 2011 AIF projects based on cost, schedule, performance, and foreign policy objectives. In some
instances, however, DOD and State changed the original implementing agency to more closely align
implementer capabilities with project requirements. USAID is the implementing agency for State, and
USFOR-A is the implementing agency for DOD. Implementing agencies have programmatic and
budgeting responsibility on behalf of DOD and State. USAID executes its own projects through contracts,
while USFOR-A executes most projects through contracts managed by USACE. The executing
agencies—either USACE or USAID—provide contract oversight, engineering, technical, and
construction services to execute the projects.

For fiscal year 2011, DOD, State, and USAID identified 7 projects that would receive AIF funding—5
projects for improving the power sector, 1 road project, and 1 project to build or improve provincial
justice centers. Table 1 lists the fiscal year 2011 AIF projects, including the implementing agency and
estimated project cost.




14
   International Security Assistance Forces-Afghanistan and Afghan government planning teams identified key
terrain districts. DOD defines key terrain districts as areas that afford a significant advantage to the party that
controls them; they are districts where the bulk of the population is concentrated, and that contain centers of
economic productivity, key infrastructure, and key commerce routes connecting such areas to each other and to the
outside world. These districts roughly follow the line of the three major highways in Afghanistan through the most
densely populated portions of the country.
15
   Afghanistan Infrastructure Fund, U.S. Embassy Kabul Joint Programs Committee, January 25, 2011.
SIGAR Audit-12-12 Infrastructure                                                                             Page 3
Table 1: Fiscal Year 2011 AIF Projects (dollars in millions)
                                                                          Initial           Final          Original       Revised
                     Location
    Project title                           Description               implementing      implementing         cost          cost
                     (region)
                                                                        Agency            Agency           estimate      estimatea

Kandahar            South         Fuel, operations, and               USFOR-A &        USFOR-A &
Bridging                          maintenance for all DOD and         Defense          DLA
                                                                                                                  $40         $48.3
Solution                          USAID procured generators in        Logistics
                                  Kandahar                            Agency (DLA)
Southeast           South &       Phase 1: Kandahar to Durai          USAID            USFOR-A
Power               Southwest     Junction and Durai Junction to                                                              $100
System                            Lashkar Gah to Kajaki high
                                                                                                                $130
(SEPS)b                           voltage transmission network (2 x
                                  110kV transmission lines and                                                                  $30
                                  power substations
Northeast           East          Chimtala to Ghazni high voltage     USFOR-A          USAID
Power                             transmission network (2 x 220kV
                                                                                                                $101          $101
System                            transmission lines and power
(NEPS)                            substations)c
NEPS                East          Chimtala to Gardez high voltage     USFOR-A          USFOR-A
                                  transmission network (110kV
                                  transmission lines to provincial                                                $86           $86
                                  centers: Chimtala to Gardez and
                                  power substations)c
Nawa to             Southwest     Pave road from Nawa district        USFOR-A          USFOR-A
Lashkar Gah                       center to Helmand provincial                                                    $23         $17.6
Road                              capital of Lashkar Gah
Provincial          Throughout    Infrastructure, equipment,          USFOR-A &        USFOR-A &
Justice             Afghanistan   furnishings, and one-year           Rule of Law      ROLFF-A
Centers                           sustainment package for 5 PJCs      Field Force                                 $20         $12.3
(PJCs)                                                                Afghanistan

                                                                                       Total:                   $400        $394.9
Source: SIGAR analysis of DOD, State, and USAID data and information.
a
 Changes to project scope and final contract costs resulted in DOD and State revising some of the original project cost estimates
contained in the fiscal year 2011 AIF congressional notification; revisions to cost estimates occurred at various times throughout
our field work.
b
  Original project was split into two projects: Kandahar ($30 million) and Helmand ($100 million).
c
 Project scope was reduced to begin from Dast-i-Barchi instead of Chimtala after ADB agreed to complete the transmission line
from Chimtala to Dast-i-Barchi.



MOST FISCAL YEAR 2011 AIF PROJECTS ARE 6-15 MONTHS BEHIND ORIGINAL
SCHEDULE AND SOME PROJECTS MAY NOT ACHIEVE DESIRED COIN EFFECTS

For fiscal year 2011, DOD and State requested $357 million—89 percent of the $400 million appropriated
to the AIF—for projects to develop and support Afghanistan’s power sector. Timely completion of these
projects is critical because many power sector projects are interdependent and directly affect sector-wide
goals. Figure 1 shows project status, the extent to which projects are behind the June 2011 execution
schedules, and obligations and disbursements for each of the seven fiscal year 2011 AIF projects as of
January 10, 2012.



SIGAR Audit-12-12 Infrastructure                                                                                           Page 4
Figure 1: Fiscal Year 2011 AIF Estimated Project Execution Schedules

                                                          Original   Oblig.   Disb.                               Estimated Project Execution Schedule          Contract
                                             Executing                                  Status
             Project Description                         Est. Cost                                   FY 2011     FY 2012         FY 2013        FY 2014 FY 2015  Award
                                              Agency                 ($M) c   ($M) c     As Of
                                                           ($M)                                   Q1 Q2 Q3 Q4 Q1 Q2 Q3 Q4 Q1 Q2 Q3 Q4 Q1 Q2 Q3 Q4 Q1 Q2 Q3 Q4 Status
             SEPS: Kajaki Dam to Lashkar                                               Jun 2011                                                                  Planned
                                              USACE       $100       $100.0   $0.1
             Gah TLs & SS                                                              Jan 2012
             SEPS: Kandahar City to Durai                                              Jun 2011                                                                  Planned
                                              USACE        $30        $0.0    $0.0
             Junction TL & SS                                                          Jan 2012
             NEPS: Dast-i-Barchi to Gardez                                             Jun 2011                                                                  Planned
                                              USACE        $86       $86.0    $0.1
             TL & SS                                                                   Jan 2012
 AIF FY 11




             NEPS: Dast-i-Barchi to Maydan                                             Jun 2011                                                                  Planned
                                              USAID       $101        $0.0    $0.0
             Shar to Ghazni TL & SS                                                    Jan 2012
                                                                                       Jun 2011                                                                  Planned
             Provincial Justice Centersa     ROLFF-A       $20        $0.2    $0.0
                                                                                       Jan 2012
                                                                                       Jun 2011                                                                  Awarded
             Nawa to Lashkar Gah Road         USACE        $23       $19.8    $0.7
                                                                                       Jan 2012
             Kandahar Bridging Solution -     DLA &                                    Jun 2011                                                                  Awarded
                                                           $40       $21.0    $12.0
             Fuel / O&Mb                      USACE                                    Jan 2012
Source: SIGAR analysis of DOD, State, and USAID data and information.
Notes: Numbers affected by rounding. Obligation and Disbursement data as of January 10, 2012. FY = fiscal year. TL =
transmission lines. SS = substations. ROLFF-A = [USFOR-A] Rule of Law Field Force – Afghanistan.
a
 The PJC project execution schedule includes a variety of projects with different estimated periods of performance.
b
  Obligation and disbursement totals are low because DLA posted fuel charges to the wrong DOD Activity Address Code.
USFOR-A is in the process of correcting these errors and posting the charges to the correct DOD Activity Address Code.
c
 Obligations in Figure 1 represent the amount of funds delivered from implementing agencies to executing agencies for the
project. Disbursements in Figure 1 represent the amount of funds spent by executing agencies for the project and may represent
funds used by the executing agency for the development of a request for proposal or project execution under an awarded contract.

Five of Seven Fiscal Year 2011 AIF Projects Were 6-15 Months behind Schedule

Acquisition and funding delays postponed the project execution schedules of most fiscal year 2011 AIF
projects from 6 to 15 months, including all power sector projects except the Kandahar Bridging Solution.
For example, USACE’s initial acquisition strategy for its SEPS and NEPS projects was unsuccessful,
resulting in delayed project execution. USACE chose to solicit contractors from two of its Multiple
Award Task Order Contracts (MATOC) to construct its SEPS and NEPS transmission lines and
substations projects. USACE believed that awarding its SEPS and NEPS projects through the MATOCs
would be the fastest procurement option and ensure that contracts were awarded before the end of fiscal
year 2011. 16 However, USACE was unable to award a contract because bids received for its SEPS and
NEPS projects were more than double estimated costs, due largely to security concerns resulting from the
risks associated with implementing firm-fixed-price contracts in a kinetic environment, poor cost
estimates, and unrealistic periods of performance. USACE is re-procuring both projects and plans to
award contracts in June or July 2012, which will delay SEPS and NEPS project execution schedules from
6 to 15 months.

Ongoing delays in transferring fiscal year 2011 AIF funds from DOD to State—and ultimately to
USAID—also contributed to delays in project execution. USAID is the implementing agency for the
$101 million NEPS project to construct transmission lines and substations from Dast-i-Barchi to
Ghazni. 17 This line is a key part of a planned NEPS to SEPS connection to transport power to Kandahar
to replace the expensive diesel-fueled power plants in the Kandahar Bridging Solution. When DOD,
State, and USAID completed the fiscal year 2011 AIF joint project plan in late June 2011, USAID
expected to award a contract during the fourth quarter of fiscal year 2011. As of February 15, 2012,
USAID had not received AIF funds to implement its NEPS project because the memorandum of
agreement to transfer AIF funds from DOD to State was still in development. According to USAID, it

16
   Prior to the passage of the fiscal year 2011 appropriations bill in April 2011, USFOR-A and USACE planned AIF
projects with the assumption that AIF funds, like CERP funds, would remain available for 1 year.
17
   Project scope was reduced to begin from Dast-i-Barchi instead of Chimtala after ADB agreed to complete the
transmission line from Chimtala to Dast-i-Barchi.
SIGAR Audit-12-12 Infrastructure                                                                                                                               Page 5
received the funds in June 2012 and expects that the project will be under contract in early 2013. USAID
originally planned to commission its NEPS project by July 2013; however, the revised completion date is
in July 2014, and some estimates extend project completion until September 2015. Delays in
implementation may pressure the U.S. government to continue to purchase diesel fuel well beyond 2013
to maintain power distributed to Kandahar City, thereby increasing the cost of that temporary solution.

The delayed completion of fiscal year 2011 AIF power projects—and other necessary power
infrastructure projects—will require continuing a temporary and expensive solution to provide the current
level of electric power for Kandahar City beyond 2013. The Kandahar Bridging Solution is expected to
cost $80 million in fiscal year 2012 and increase to $100 million in fiscal year 2013. Until alternative
power sources replace or increase the amount currently provided to Kandahar City, there is no indication
that annual costs will decrease if the Bridging Solution extends beyond 2013.

Finally, as of February 15, 2012, no major contracts had been awarded for PJC projects funded with fiscal
year 2011 AIF funds. 18 The projects have been delayed for a number of reasons, including the late arrival
of fiscal year 2011 AIF funds, project team reorganization, personnel changes, programmatic changes to
project execution, and difficulties of field personnel travelling to the proposed project sites to assess
projects.

As of February 15, 2012, Only Two of Seven Fiscal Year 2011 AIF Projects Were under Contract

As of February 15, 2012, only two of the seven fiscal year 2011 AIF projects were under contract: the
Nawa to Lashkar Gah road construction project and the Kandahar Bridging Solution. Both projects were
initiated with CERP funds before the authorization for AIP and appropriation for AIF. For example,
CERP funded the development of the request for proposal for the Nawa to Lashkar Gah road, and
USACE also planned to use CERP to award a contract and begin construction; in total, CERP provided
$85,000 for initial design and planning work for the road. Based on our review of progress documents
and satellite imagery, as well as conversations with USFOR-A and USACE officials, construction of the
Nawa to Lashkar Gah road is currently on pace to meet USACE’s targeted completion date of February
2013, although less than 10 percent of the road was complete when we conducted our field work in
February 2012.

Similarly, the plan to create a power bridging solution for Kandahar City by constructing diesel-generated
plants and providing the power plants with 3 years of fuel, operations, and maintenance was initially
approved and planned to be a multi-year CERP-funded project. The power plants were built and
commissioned using CERP funds in the third quarter of fiscal year 2011, and—to ensure that power was
continuously provided to Kandahar City—USFOR-A used CERP funds to pay for fuel, operations, and
maintenance until USFOR-A received AIF funds. When AIF funding became available, USFOR-A used
$8.8 million in AIF funds to reimburse CERP accounts for fuel purchased between April and July 2011.


Most Fiscal Year 2011 AIF Projects Will Not Result in Identified COIN Benefits for
Several Years and Some May Have Adverse Effects

The scale of AIF projects means that the U.S. government will not achieve the planned contributions to
the COIN strategy described in the fiscal year 2011 AIF congressional Notification for several years, and
some projects risk adverse COIN effects (appendix III identifies the potential COIN benefits of each
project, as identified by DOD, State, and USAID). AIF funds large-scale, complex, multi-year projects
that may not directly involve either the Afghan government or local communities during on-the-ground
project implementation, and the potential COIN effects identified by DOD, State, and USAID are based
on completed projects that are years away from completion. In addition, some fiscal year 2011 AIF


18
     On November 18, 2011, USFOR-A disbursed $8,653 for Shade Structures at Herat Juvenile Detention Center.
SIGAR Audit-12-12 Infrastructure                                                                          Page 6
projects may not advance COIN objectives or may have an adverse COIN effect because projects may
create an expectations gap among the affected population or lack citizen support.

Most Fiscal Year 2011 AIF Projects May Not Result in COIN Effects for Several Years

While DOD, State, and USAID made efforts to identify potential COIN benefits, due largely to project
delays, most fiscal year 2011 AIF projects will not result in those benefits for several years. 19 COIN
guidance 20 states that the speed with which COIN operations are executed may determine their success;
this is especially true for operations that involve restoring essential services. As noted above, 5 of the 7
fiscal year 2011 AIF projects were 6 to 15 months behind schedule. During spring 2011, USFOR-A
Regional Command South officials voiced concerns regarding the need to quickly implement SEPS if it is
going to achieve positive COIN effects. When implemented, these projects would support COIN efforts
by increasing basic services provided by the Afghan Government in Kandahar and Helmand. However,
the contract for Kandahar-based SEPS projects is not expected to be awarded until summer 2012, and the
project is not expected to be completed until the third quarter of fiscal year 2014. As a result, DOD,
State, and USAID may not achieve positive COIN effects with some fiscal year 2011 AIF projects for
several years.

Some Fiscal Year 2011 AIF Projects May Not Advance COIN Objectives or May Have Adverse COIN
Effects

Some fiscal year 2011 AIF projects may not advance COIN objectives or may have adverse COIN effects
because they create an expectations gap among the affected population, or because they lack citizen
support. COIN is an extremely complex form of warfare, though, at its core, COIN is a struggle for the
local population’s support. COIN guidance states that the support of the populace for a given project may
determine success. Although AIF policy requires a brief description of projects, including relevance to
COIN strategy, it does not require documentation that the affected populations support the projects. 21

At least two fiscal year 2011 AIF projects risk creating adverse COIN effects:

         •   While the Kandahar Bridging Solution may achieve some immediate COIN benefits
             because—as stated by USAID officials—“people like having their lights on,” the U.S.
             government may be building an expectations gap that cannot be met in a timely manner.
             Through the provision of diesel fuel for power generation in Kandahar City using AIF, the
             U.S. government increased power availability by up to 25-27 megawatts (MW) 22 and
             extended availability to two previously underserved areas of Kandahar City in the west and
             southeast. According to USAID data, since the beginning of the Kandahar Bridging Solution,
             electricity consumption in Kandahar City has increased by 61 percent. However, if the U.S.
             government stops providing diesel fuel for the generators before more sustainable sources are
             available, power availability will drop to approximately 12 MW. 23 Current estimates indicate




19
   Some degree of COIN benefits may occur if implementing agencies are able to ensure that contractors employ
local laborers, but it remains unclear if contracts will contain such requirements.
20
   FM 3-24 MCWP 3-33.5 Counterinsurgency, Headquarters Department of the Army, December 2006.
21
   U.S. Embassy Kabul and U.S. Forces-Afghanistan Consolidated Policy for Executing Afghanistan Infrastructure
Fund Procedures, February 18, 2010.
22
   The average output is closer to 16 MW because the plants generally operate at 60 percent, and fuel cost projections
are based on the average operational tempo.
23
   Under normal circumstances, Kajaki Dam is the only power generation source for Kandahar City and generates
approximately 12 MW of electricity for Kandahar City. Under optimal conditions, through Kajaki and DABS
operated diesel generators, Kandahar City may receive up to 21 MW.
SIGAR Audit-12-12 Infrastructure                                                                               Page 7
             that more sustainable sources will not be available to replace the Kandahar Bridging Solution
             until well beyond 2014. 24
        •    The Nawa to Lashkar Gah road is another fiscal year 2011 AIF project that may result in
             adverse COIN effects. Quality assurance and quality control narratives state that there were
             ongoing negotiations between the contractor and the local population regarding the
             demolition of houses and right of way issues following contract award. According to the
             contract, the Afghan government settled land ownership issues and secured the right of way
             prior to construction, and USACE instructed contractors not to include any related costs in
             their proposals. Nevertheless, USACE documents show that the local population expressed
             ongoing frustration with the project to the USACE contractor and quality assurance personnel
             and stated that they were not compensated by the government for the destruction of their
             property.


DOD, STATE, AND USAID DID NOT CALCULATE SUSTAINMENT COSTS OR
OTHERWISE ENSURE SUSTAINABILITY

Although implementing agencies produced sustainment plans—as required—for each fiscal year 2011
AIF project, these plans did not define project sustainment costs and agencies did not communicate any
such costs to the Afghan government. To address growing concerns about sustainability—as reported by
us, GAO, other Inspectors General, and the Commission on Wartime Contracting in Iraq and
Afghanistan—AIF’s authorizing legislation 25 requires each project to have a sustainment plan, and the
standards of foreign assistance stipulate what such a plan should entail. Under the Foreign Assistance Act
of 1961, for example, agencies implementing foreign assistance greater than $1 million are required to
evaluate recipient nations’ capacity to “effectively maintain and utilize the project, taking into account
among other things the maintenance and utilization of projects.” 26 DOD enacted similar guidance for
projects funded through CERP—which generally funds projects significantly smaller than AIF—and
requires sustainment plans to include an “agreement with either the host nation, a non-Department of
Defense agency of the U.S. government, or a third party contributor to finance the sustainment of the
activities and maintenance of any equipment or facilities to be provided through the proposed project.” 27
To meet these requirements, we believe that implementing agencies must accurately determine and
clearly articulate sustainment costs to the entity ultimately responsible for the project.

While USFOR-A made some efforts to determine the sustainment costs for the Nawa to Lashkar Gah road
and the SEPS Helmand and Kandahar transmission lines and substations, these estimates are simple
percentage calculations based on total project cost and do not consider Afghanistan’s unique
circumstances, including, for example, the effect of the insurgency and security requirements.
Specifically, USFOR-A uses a baseline of 5 percent of the construction cost estimate to calculate
projected sustainment costs for transportation projects like the Nawa to Lashkar Gah road. Using a
similar calculation, projected sustainment cost estimates prepared by USACE indicate that the SEPS
Helmand transmission lines and substation compounds will cost a total of $4.2 million over 25 years to
sustain. USFOR-A did not calculate sustainment cost estimates for other fiscal year 2011 AIF projects.

Determining sustainment costs is difficult, especially for projects in Afghanistan. Despite some efforts to
determine sustainment costs for fiscal year 2011 AIF projects, these efforts have not produced accurate
24
   Sustainable sources include a three turbine strong Kajaki Dam, and another—unidentified—power source. Current
estimates call for the completion of turbine #2 at Kajaki Dam in the second fiscal quarter of 2015. After the
installation of turbine #2, turbines #1 and 3 will need total refurbishments; however, the period of performance and
funding for that project remain unidentified, as does a second generation source required to fill the void left when
the U.S. government no longer provides diesel fuel through the Kandahar Bridging Solution.
25
   P.L. 111-383 §1217 (g)(1).
26
   P.L 87-195 §611(e), Foreign Assistance Act of 1961, September 4, 1961.
27
   P.L. 112-10 §9005.
SIGAR Audit-12-12 Infrastructure                                                                             Page 8
estimates, nor were sustainment costs provided to or agreed to by the Afghan government. According to
USFOR-A documents and officials, calculating accurate sustainment cost estimates requires considerable
time and resources, and staff and capacity limitations prevented it from designing methodologies and
collecting data to properly calculate realistic sustainment costs for fiscal year 2011 AIF projects.


Project Sustainment Relies on Afghan Government Entities with Questionable Capacity

Fiscal year 2011 AIF project sustainment relies heavily on Afghan entities with questionable capacity. To
help ensure that AIF projects will be properly maintained, DOD, State, and USAID require the Afghan
government agency or official ultimately responsible for taking control of a project to sign a letter
indicating willingness to fulfill project sustainment requirements. Afghan government entities are also
obligated to demonstrate their capacity to sustain AIF projects prior to project approval. For example,
implementing agencies expect the Kandahar Bridging Solution to provide the Afghan power utility, Da
Afghanistan Breshna Sherkat (DABS), with a reliable revenue source sufficient to enable DABS to
properly maintain existing equipment. Eventually, DOD, State, and USAID expect DABS to assume
responsibility for all U.S. government-procured generators and for reducing the role of diesel power
generation to the provision of backup power. Similarly, the sustainment plan for NEPS and SEPS
requires DABS to assume responsibility for all infrastructure improvements and revenue collection upon
project completion. Sustainment plans for the Nawa to Lashkar Gah road and PJC projects also rely on
the Afghan government, calling for the Nawa District governor to take responsibility for the road’s
operations and maintenance, and the Afghan government to sustain each PJC, including the maintenance
of facilities and provision of personnel.

Although the Afghan government endorsed fiscal year 2011 AIF projects in writing, these Afghan entities
have questionable capacity and lack the resources—financial and otherwise—necessary to fulfill these
commitments. We reported in January 2010 28 that the management and operational capacity of DABS
was extremely weak. In 2011, Ernst and Young 29 expanded on our assessment of DABS and found
weaknesses in many of DABS’ core business systems. 30 While USAID continues its efforts to bolster
DABS’ capacity, and has made progress within DABS’ Kabul office, DABS’ office in Kandahar—which
is responsible for the sustainment of SEPS and the ultimate operation of U.S. government procured
generators in Kandahar—has not achieved similar gains. In Kandahar, DABS has limited capacity to bill
customers, collect revenues, and maintain its infrastructure. According to USAID data and officials,
DABS in Kandahar still only issues bills for two-thirds of its electricity output and only collects revenues
from approximately 30 percent of its billed consumption in Kandahar City. Current estimates call for the
U.S. government to spend nearly a quarter of a billion dollars in AIF monies to support the Kandahar
Bridging Solution through calendar year 2013, when either DABS takes over fuel procurement or other
power sources come online. 31 According to congressional estimates, for DABS to take over fuel
procurement, it would have to commit approximately 60 percent of its current nationwide revenue or
more than 400 percent of Kandahar DABS’ current revenue. Moreover, despite the U.S. government’s
provision of a reliable revenue source at no cost to DABS through the Kandahar Bridging Solution,
DABS remains unable to routinely fuel its generators at its Breshna Kot power station. DOD, State, and
USAID officials all questioned DABS’ capacity to sustain fiscal year 2011 AIF projects.

28
   SIGAR-10-4.
29
   Ernst & Young is a professional services firm. In 2011 Ernst & Young was hired by USAID to conduct a review
and evaluation of DABS’s financial management capacity and internal control systems using the criteria established
by USAID, Afghanistan. Its review included interviews, observations and tests of compliance with the DABS’s
stated procedures.
30
   Report on Pre Award Assessment of Da Afghanistan Breshna Sherkat (DABS), Ernst & Young, August 2011.
Areas of weakness include the following: financial management, budgeting and accounting, procurement and
purchasing, program management and monitoring, corporate governance structure, and personnel policies and
procedures.
31
   Replacement power sources for this fuel will not be commissioned until well after 2013.
SIGAR Audit-12-12 Infrastructure                                                                           Page 9
Additionally, the Afghan government does not have a sustainable road maintenance program and
continues to rely on international assistance to maintain its current road network. Confusion remains
regarding who will be responsible for sustaining the Nawa to Lashkar Gah road. Different documents
identify either the Nawa District Governor or Helmand’s Provincial Directorate of Public Works as
accepting responsibility for the road. Furthermore, according to USFOR-A, the Deputy Minister of
Public Works recommended that the U.S. government stop building roads because the Afghan
government is unable to maintain the current road network.

The Afghan Ministry of Interior pledged to sustain each PJC, including maintaining the facilities and
providing qualified personnel to staff the various functions. The complex makeup of PJCs indicates that
multiple Afghan government entities would be involved in staffing and sustaining the centers. However,
it remains unclear which specific entities are expected to be involved in sustaining PJCs, and sustainment
and staffing requirements for a functional PJC remain undefined. Moreover, although some staffing
requirements have been identified, the Afghan government has had difficulty filling those positions.

Afghan government entities responsible for sustainment lack proven capacity and budgets to sustain
projects. As we have previously reported, this limitation is, in part, because the government collects and
allocates funds centrally, resulting in very small budgets for directorates outside of Kabul, which they
only use for basic operational costs. 32 For example, according to USAID and USACE officials, DABS in
Kandahar uses nearly all of its funding for basic operating costs and salaries and does not have enough
funds to routinely fuel its generators in the south.


Project Sustainment Relies on Unidentified and Unfunded Projects or Projects with
Completion Dates beyond 2014

The sustainment and viability of some fiscal year 2011 AIF projects relies on unidentified or unfunded
projects with completion dates beyond 2014. According to DOD, State, and USAID, AIF projects should
be completed by the end of calendar year 2014, and sustainment plans should not be overly ambitious.
Nevertheless, replacing the energy produced by the Kandahar Bridging Solution, for example, will require
(1) a three-turbine-strong Kajaki Dam, and (2) a yet-to-be determined second power source.

        •    A three-turbine-strong Kajaki Dam requires the installation of turbine 2—an ongoing effort
             by USAID since 2005—and the refurbishment of turbines 1 & 3. The refurbishment of
             turbines 1 & 3 will not begin until after turbine 2 is installed and commissioned, which some
             USAID officials stated would not realistically happen until the end of 2015, or the first
             quarter of 2016. Moreover, there is still no clear plan or funding source for the refurbishment
             of turbines 1 & 3.
        •    Although original AIF sustainment plans identified the ESF-funded NEPS to SEPS
             connection to be the second sustainable power source to replace the Bridging Solution, a final
             feasibility assessment for the connection is not complete and USAID, USACE, and ADB
             officials were unsure if USAID would fund or complete the connection. 33 Even if USAID
             proceeds with the connection, providing power to Kandahar via the NEPS to SEPS
             connection will not occur by the end of 2014. Further, USAID had not obligated funds for
             the connection, defined periods of performance, or issued a request for proposal. In May
             2012, USAID officials told us that they could not proceed with the $294 million ESF-funded
             portion of the connection until DOD transfers $101 million in fiscal year 2011 AIF funding


32
   Weaknesses in Reporting and Coordination of Development Assistance and Lack of Provincial Capacity Pose
Risks to U.S. Strategy in Nangarhar Province, SIGAR-11-1, October 26, 2010.
33
   Although final results of this assessment are pending, USAID has met with stakeholders to discuss and confirm
technical constraints and priorities in implementing system expansion. Based on preliminary indications, USAID is
now confident that the NEPS/SEPS connection is viable.
SIGAR Audit-12-12 Infrastructure                                                                          Page 10
             for the initial segment from Dast-i-Barchi to Ghazni; USAID ultimately received the AIF
             finds in late June 2012.

Current project plans for fiscal year 2013 AIF include $250 million for a Kandahar Supplemental Power
Solution to fund the development of the second sustainable power source. Options under consideration
for this power source include using AIF to fund the NEPS to SEPS connection or constructing a 360 acre
photovoltaic field. Both solutions are projected for completion beyond the fourth quarter of fiscal year
2015 in the AIF estimated project execution schedule. To bridge the gap in sustainable power, USFOR-A
and USACE anticipate there may be a need to provide diesel fuel for the generators in Kandahar City
beyond 2013.


CONGRESSIONAL OVERSIGHT AND INTERAGENCY COORDINATION ARE
LIMITED BY LACK OF SHARED INFORMATION AND MASTER PLAN FOR
ENERGY SECTOR

DOD and State have defined AIP differently and do not provide comprehensive AIP information to
Congress, thus inhibiting congressional oversight of the program. The legislation authorizing AIP
requires the Secretary of Defense, in coordination with the Secretary of State, to submit to Congress a
report regarding implementation of AIP during each fiscal year. The legislation indicates that the AIP is
to be comprised of projects jointly developed by DOD and State. Furthermore, a joint explanatory
statement of the congressional armed services committees stated that AIP is “intended to be a whole-of-
government approach in support of the counterinsurgency plan, with both the Department of Defense and
the Department of State bringing resources to the effort.” 34 The joint statement indicated that DOD
would use AIF funds to support the AIP, and State would reprogram existing foreign assistance resources.
In their fiscal year 2012 Congressional Budget Justification, State and USAID requested ESF funding
specifically for AIP and stated that they would use these funds in conjunction with AIF funds to support
AIP and achieve shared objectives. 35 In its comments on our draft report, the Office of the Secretary of
Defense (OSD) stated that in congressional briefings regarding the fiscal year 2011program, “DOD, State,
and USAID identified all AIP projects—funded by either ESF or AIF—and their relationship to each
another.” However, in its report to Congress on the implementation of AIP for fiscal year 2011, DOD, in
coordination with State, only reported on projects funded through AIF, 36 thereby limiting comprehensive
congressional oversight of key infrastructure projects in Afghanistan. In commenting on our draft report,
OSD estimated that fiscal year 2011 AIP projects funded through ESF totaled over $1 billion.

In addition, although the USFOR-A Commander and the Ambassador to Afghanistan endorsed the fiscal
year 2012 AIF project list for congressional notification in July 2011, DOD did not provide relevant
congressional committees with the fiscal year 2012 AIF notification until late February 2012 due to
unclear agency reporting guidance. The reporting and notification approval processes involve multiple
stakeholders throughout DOD—both functionally and geographically. Fiscal year 2011 was the first year
for AIF processes and procedures, and DOD did not clearly articulate the requirements for notifications
and reports to field program managers. According to officials from OSD and U.S. Central Command
(CENTCOM), initial reports and notification documents provided by AIF program managers in the field
did not contain required data or information. For example, they stated that, although the initial fiscal year
2012 AIF project list endorsed by the Commander of USFOR-A and the U.S. Ambassador to
Afghanistan—and sent to CENTCOM and OSD for approval—contained minimal, basic information

34
   Joint Explanatory Statement of the Committees on Armed Services of the U.S. Senate and House of
Representatives on H.R.6523, Ike Skelton National Defense Authorization Act for Fiscal Year 2011, December 22,
2010.
35
   Congressional Budget Justification, Volume 2, Foreign Operations, Department of State, Fiscal Year 2012.
36
   Department of Defense Implementation of the Afghanistan Infrastructure Program and Fund, Report to Congress
in Accordance with Section 1217 of the National Defense Authorization Act for Fiscal Year 2011; submitted April
18, 2012.
SIGAR Audit-12-12 Infrastructure                                                                        Page 11
such as project titles and dollar amounts, final reports required more detailed information, including
sustainment plans. 37 However, USFOR-A officials stated that CENTCOM and OSD did not provide
guidance on the format or requirements. Thus, USFOR-A could not track the status of reports because
CENTCOM and OSD did not clearly articulate the vetting and approval processes. Appendix IV provides
more information on required reports and the fiscal year 2012 project notification timeline.


DOD, State, and USAID Are Developing Approaches for Overall Joint Project
Management, but Guidance Lacks Specific Responsibilities for Joint Implementation

AIF guidance 38 states that once DOD, State, and USAID identify project components and assign a lead
implementing agency, the lead agency should form a Joint Project and Delivery Team (JPDT) to ensure
joint project management, create transparency and accountability, and enable joint decision making in
support of the United States Government Integrated Civilian-Military Campaign Plan for Support to
Afghanistan. 39 Each JPDT is intended to include members of the Afghan government, USAID, USFOR-
A, and the appropriate Regional Command and Regional Platform. In practice, these teams do not jointly
implement all AIF projects. DOD, State, and USAID use JPDTs for the large-scale, complex energy
sector infrastructure projects funded by AIF, such as the NEPS and SEPS power projects, but they have
not established these teams for fiscal year 2011 AIF road and PJC projects. Teams hold a bi-weekly
teleconference for stakeholders in Afghanistan’s energy sector, led by USFOR-A’s Joint Program
Integration Office and USAID’s Office of Infrastructure, Energy, and Engineering in Kabul. However,
while AIF guidance 40 requires JPDTs to meet, provide overall project management for AIF projects, and
include relevant stakeholders, it does not define specific responsibilities for project implementation or
oversight for lead and secondary agencies to ensure joint management. Agencies responsible for AIF
project execution—primarily USACE or USAID—retain all project implementation and oversight
responsibilities.

DOD and USAID officials noted a planned effort to jointly manage project delivery related to the AIF-
funded SEPS project in Helmand. During our fieldwork, USFOR-A, USACE, and USAID officials were
in the process of establishing a Project Integration Office at the Kajaki Dam in Helmand province to
support the implementation of several planned infrastructure projects in the vicinity of the dam over the
next 3 years, including projects implemented using AIF, ESF, and CERP funds. 41 The Project Integration
Office at Kajaki Dam, as planned, will be similar to a JPDT. For example, although individual project
implementation will be executed through separate USAID or USACE contracts, the Project Integration
Office will leverage the personnel and physical resources of a common field office for quality assurance
and contractor oversight. According to both DOD and USAID, the Project Integration Office is unique to
projects in the vicinity of the Kajaki Dam, and other AIF projects do not have similar arrangements.

DOD, State, and USAID also face challenges in monitoring and coordinating the execution of AIF
projects due to the lack of a shared database. As GAO reported in 2011, maintaining an accessible data
system that promotes interagency information sharing is particularly important in an environment such as

37
   Coordination with State and USAID is ongoing throughout the process, but final approval from State does not
occur until after reports/notifications are vetted through DOD.
38
   The Joint Plan for Implementation & Management of the Afghanistan Infrastructure Fund, In Support of the
United States Department of State, Department of Defense, and the Government of the Islamic Republic of
Afghanistan, USFOR-A Joint Program Integration Office and USAID’s Office of Infrastructure, Energy, and
Engineering, June 16, 2011.
39
   August 2009.
40
   USFOR-A Joint Program Integration Office and USAID’s Office of Infrastructure, Energy, and Engineering, June
16, 2011.
41
   The Joint Project Integration Office at Kajaki will serve as the hub of on-site management for U.S. government
projects in the area, including some AIF funded SEPS projects in Helmand, ESF funded installation of turbine 2, and
CERP funded repair of the Kajaki Dam intake tower.
SIGAR Audit-12-12 Infrastructure                                                                          Page 12
Afghanistan, where several agencies are involved in similar development efforts that are dispersed
throughout the country. 42 Nevertheless, USFOR-A established the “AIF Checkbook” 43—an internal
system that can only be accessed by USFOR-A and Army Central Command—to track commitments,
obligations, disbursements, and key project funding data associated with AIF, and USAID plans to use its
internal “Phoenix” system to track commitments, obligations, and disbursements from AIF. 44 Whereas
CERP guidance requires data for all construction projects to be reported for inclusion in a USAID
database, no similar legislative or policy requirement exists for AIP projects. Without insight into the
implementation of interdependent projects, DOD, State, and USAID officials may not have adequate
information to make effective project management decisions.


Some Fiscal Year 2011 AIF Projects Affect Afghanistan Energy Sector Goals but Are Not
Based on a Master Plan

DOD, State, and USAID continue to build large-scale energy infrastructure projects that affect the plans
of other donors and sector-wide goals without the benefit of a master plan for Afghanistan’s energy
sector. Our previous report, 45 as well as a report by ADB, 46 found that a master plan for Afghanistan’s
energy sector would provide a strategic approach to project implementation and bring standardization to
the generation and distribution system. In response to our report, USAID stated that it would work with
ADB and the Afghan government to finalize the master plan for Afghanistan’s energy sector by June
2011. However, USAID and ADB did not achieve that goal, primarily because ADB had ongoing
difficulty securing a consulting firm to conduct necessary fact finding in Afghanistan; the master plan is
more than a year behind schedule and is not scheduled for completion until December 2012.

Without a master plan, donors—including DOD, State, and USAID—are implementing projects without a
clear roadmap of priorities or specific projects to finance and execute. As a result, officials from DOD,
State, and USAID may not have adequate information to make effective project management decisions,
and AIF funds may be at risk for waste due to a lack of awareness of existing or planned projects or
duplication of effort by different donors.

For example, DOD plans to use $86 million of fiscal year 2011 AIF funds to implement a project that
already had funding available from another donor. In July 2011, the ADB told stakeholders from the
Afghan government, DOD, State, USAID, and the World Bank that one fiscal year 2011 AIF project
worth $86 million conflicted with a project that the Bank had approved in early 2010 and that was already
under design and preparation. Specifically, the Bank had funding for, and planned to execute, the NEPS
220kV transmission line from Dast-i-Barchi to Gardez. Following the July 2011 meeting—1 month
before DOD and State notified Congress of the fiscal year 2011 AIF project list—the Bank agreed to
allow USFOR-A to implement the project using fiscal year 2011 AIF funds. However, as a result of
42
   The Afghan government developed a Donor Assistance Database, which includes donor reported foreign
assistance to Afghanistan from other countries. However, in 2011,GAO found that the database was incomplete. See
Opportunities to Reduce Potential Duplication in Government Programs, Save Tax Dollars, and Enhance Revenue,
GAO-11-318SP, March 2011.
43
   USFOR-A J8 inputs commitments and obligations into DOD’s Resource Management Tool. The Operational Data
Store functions as a repository system for information already processed through Defense Finance and Accounting
Services Standard Finance System. AIF Checkbook contains information available in these systems, but filtered
specifically for AIF projects.
44
   As of February 15, 2012, USAID had not used Phoenix to track AIF funds because a memorandum of agreement
for the transfer of funds between USFOR-A and USAID was not finalized and USAID had not received any AIF
funds.
45
   Afghanistan Energy Supply has Increased but an Updated Master Plan is Needed and Delays and Sustainability
Concerns Remain, SIGAR-10-4, January 15, 2010.
46
   Islamic Republic of Afghanistan: Power Sector Master Plan (Financed by the Japan Fund for Poverty Reduction),
Project Number: 43497 Policy and Advisory Technical Assistance, ADB Technical Assistance Report, November
2010.
SIGAR Audit-12-12 Infrastructure                                                                        Page 13
USACE’s ongoing delays in executing the project, ADB officials stated in February 2012 that they were
keeping funds available for the project.

In commenting on our draft report, USFOR-A disagreed with our recommendation to reassess the
feasibility of allowing ADB to complete the NEPS project, thus allowing USFOR-A to put the $86
million in AIF funds to better use. USFOR-A stated that the project design was completed and the project
was advertised in May 2012. USFOR-A further noted that the ADB had not planned to construct the
project for 2 or 3 years after the estimated completion date of the AIF-funded project. As a result, we
have deleted that recommendation. However, we note that USFOR-A missed an opportunity to allow
another donor to continue financing the project, particularly after it had completed the design and
preparation phase. Given AIF project delays, it is uncertain whether the ADB project would have been
completed 2 or 3 years later. In deciding to fund this project, the U.S. government missed an opportunity
to put those funds to better use.


CONCLUSIONS

More than 10 years after international intervention in Afghanistan—and nearly 9 years since the U.S.
government began focusing efforts to build Afghanistan’s infrastructure—the U.S. government, the
international community, and the Afghan government continue to face challenges in implementing
programs to build basic infrastructure, particularly those efforts aimed at providing power to the largest
cities and most critical areas in Afghanistan.

Effective COIN strategy requires the U.S. government to work closely with the host nation to establish
achievable goals. If goals are set and not achieved, both the U.S. and the Afghan governments can lose
the populace’s support. Fiscal year 2011 AIF projects may result in adverse COIN effects because DOD,
State, and USAID did not ensure the availability of energy sources to replace AIF-procured diesel-
generated power in Kandahar City or ensure the buy-in or compensation of local populations affected by
AIF projects. Additionally, implementing projects that the Afghan government is unable to sustain may
be counterproductive to the COIN strategy. Projects that are too complex may prevent genuine
cooperation or take too long to complete to provide immediate COIN benefits given the impending
withdrawal of U.S. and coalition troops. They might not advance, and may even undercut, U.S.
government and COIN objectives. Our reports have found that the U.S. government’s efforts to execute
large-scale energy sector projects in Afghanistan have frequently resulted in cost and schedule over-runs,
contractor default, questionable or undefined sustainment methods, and wasted U.S dollars.

The success and viability of many AIF projects hinge, in part, on unidentified, unfunded infrastructure
projects and the successful, timely completion of other projects that the U.S. government has been unable
to complete for more than 7 years. If the U.S. government considers the execution of large-scale
infrastructure projects— particularly in the energy sector—a priority for U.S. investment in Afghanistan,
more effort must be made toward joint implementation by U.S. government agencies; coordination with
the Afghan government and international community; and development of realistic, achievable, and
clearly defined sustainment plans.

Because implementing agencies did not develop adequate sustainment plans, and project sustainment
relies on Afghan entities with questionable capacity and on unidentified and unfunded projects or projects
with completion dates beyond 2014, Congress and the U.S. taxpayers do not have reasonable assurance
that projects implemented using fiscal year 2011 AIF funds will be viable or sustained by the Afghan
government after completion.


RECOMMENDATIONS

To improve Congress’s capacity for effective oversight and enhance joint decision making for large-scale,
interdependent infrastructure projects that effect sector-wide goals, SIGAR recommends that the U.S.
SIGAR Audit-12-12 Infrastructure                                                                     Page 14
Ambassador to Afghanistan and the USAID Mission Director, in coordination with the Commander
USFOR-A:

    1. Define and identify all infrastructure projects that compose AIP, including projects funded
       by AIF and ESF, and include this information in required congressional reports as part of
       AIP. This notification should illustrate the interrelationship of infrastructure projects.
To enhance coordination and oversight between DOD (USFOR-A and USACE), State, and USAID,
SIGAR recommends that the Commander USFOR-A, the U.S. Ambassador to Afghanistan, and the
USAID Mission Director:

    2. Define the roles and responsibilities for lead and secondary agencies for the implementation
       and oversight of AIP projects, and
    3. Develop a shared or web-based database, or include AIP projects into an existing shared or
       web-based database, to monitor project implementation and track progress. (Similar
       consideration should be given to all development/infrastructure projects, as recommended
       previously by SIGAR and GAO.)
To help ensure the successful and timely development of Afghanistan’s power sector, which relies on
interdependent projects implemented by different U.S. government agencies and international donors,
SIGAR recommends that the Commander USFOR-A, the U.S. Ambassador to Afghanistan, and the
USAID Mission Director—in close coordination with key stakeholders including the Afghan government
and ADB:

    4. Develop a project execution schedule of U.S.-funded interrelated infrastructure projects to
       determine and communicate the “critical path” to stakeholders and implementers, and
       incorporate the schedule into the master plan for Afghanistan’s energy sector being
       developed by ADB.
To help ensure the successful and timely development of Afghanistan’s power sector, which relies on
interdependent projects implemented by different U.S. government agencies and international donors, and
to ensure that $101 million of fiscal year 2011 AIF funds do not expire, SIGAR recommends that the
Secretary of Defense and the Secretary of State:

    5. Expedite the transfer of $101 million of fiscal year 2011 AIF funds from DOD to State—
       and ultimately to USAID—for the implementation of the NEPS project from Dast-i-Barchi
       to Ghazni.
To help ensure AIP projects achieve COIN goals, SIGAR recommends that the Commander USFOR-A,
the U.S. Ambassador to Afghanistan, and the USAID Mission Director:

    6. Clearly indicate the amount of time that infrastructure projects will take to achieve COIN
       benefits identified in congressional notifications required by AIP authorizing legislation.
    7. Revise AIP guidance and project selection criteria to ensure that AIP projects have the
       support of the affected population.
To help ensure AIP projects are sustained and viable upon completion, SIGAR recommends that the
Commander USFOR-A, the U.S. Ambassador to Afghanistan, and the USAID Mission Director:

    8. Develop a comprehensive sustainment plan for each AIP project that, at a minimum,
       includes (a) a realistic estimate of costs necessary to sustain the project, the planned source
       of such funding, and an assessment of the reliability of the planned source; (b) evidence
       that estimated sustainment costs have been provided to the Afghan government and that
       the Afghan government has committed to sustain the project; and (c) a joint assessment of
       the capacity of the Afghan government entity responsible for sustaining the project. The
       sustainment plans should be included in required congressional notifications.

SIGAR Audit-12-12 Infrastructure                                                               Page 15
To help ensure the timely completion of congressional notifications and reports for AIP projects, as well
as the timely receipt of appropriated funds, SIGAR recommends that the Secretary of Defense and the
Secretary of State:

    9. Clarify and formalize the requirements and format for AIP notification and reporting
       packages and the approval process, including expected timeframes, for providing
       notifications and reports to Congress.


AGENCY COMMENTS

State, the U.S. Embassy Kabul, USAID, USFOR-A, and OSD provided written comments on a draft of
this report. These comments are reproduced in appendices V, VI, VII, VIII, and IX, respectively. The
Embassy, CENTCOM, USACE, and OSD also provided technical comments, which we incorporated
into our final report, as appropriate.


State

In addition to general comments about AIP, State responded specifically to recommendation 9 regarding
late notification and reporting to Congress of AIP projects. State acknowledged that implementation
challenges were encountered in 2011 as a result of the unique and new structure of the AIF. State noted
that a refined process, developed last year and now in place, “will effectively manage the notification and
other administrative requirements under the law.” However, as noted in the report, we found that
notification and reporting challenges continued through the end of fiscal year 2011 and into fiscal year
2012. We therefore remain concerned that the process for AIP notifications and reporting still needs to be
improved.


U.S. Embassy Kabul

In addition to general comments on the draft report, U.S. Embassy Kabul responded to all
recommendations. The Embassy concurred with recommendations 1, 2, 4, 5, 6, 7, and 9. The Embassy
partially concurred with recommendations 3 and 8. Regarding recommendation 5, the Embassy stated
that the transfer of $101 million of fiscal year 2011 AIF funds from DOD to USAID would be
accomplished by the end of June 2012, and OSD confirmed in its response to the draft report that the
transfer had taken place. The Embassy did not clearly outline the steps it would take, and the associated
timeframes, to implement the other eight recommendations.

With regard to recommendation 3–to develop or include AIP projects in a shared or web-based database–
the Embassy stated that USFOR-A and USAID had ample means to track AIF and ESF projects and that
it was uncertain that a separate database would add value to already established practices. However,
requiring the inclusion of AIP project information in an existing or developing database would meet the
intent of our recommendation and should minimize agency burden or costs. With regard to
recommendation 8–that agencies develop a comprehensive sustainment plan for each AIP project that
contains specific information that should be included in required congressional notifications–the Embassy
stated that the recommendation was warranted but that the sequence of AIP project identification,
approval, notification, design, and acquisition might not support inclusion of a detailed joint assessment
in the congressional notification. However, given that the AIP project identification, approval, and
notification are already joint processes, the conduct and inclusion of a joint assessment of the capacity of
the Afghan government entity responsible for sustainment should be a manageable requirement, in
addition to the other requirements for a comprehensive sustainment plan outlined in the recommendation.



SIGAR Audit-12-12 Infrastructure                                                                    Page 16
USAID

USAID generally concurred with the first eight recommendations but did not clearly outline the
timeframes and steps it would take to implement them. USAID did not respond to recommendation 9.


USFOR-A

In addition to general comments, USFOR-A responded to eight recommendations in our draft report.
USFOR-A concurred with recommendations 1 and 4, and partially concurred with recommendations 2, 3,
6, 7, and 8, but did not clearly outline the timeframes and steps it would take to implement them.
USFOR-A did not concur with a recommendation in our draft report to reassess the feasibility of allowing
ADB to complete the $86 million NEPS project. According to USAFOR-A, the project design was
complete and the project was advertised in May 2012. As a result, we have deleted the recommendation,
but we note that the U.S. government has missed an opportunity to put the $86 million to better use by
allowing another donor to continue funding the project. USFOR-A indicated that OSD would respond to
recommendations 5 and 9. See appendix VIII for USFOR-A’s full comments and our responses.


OSD

In commenting on our draft report, OSD strongly disagreed with many of our findings and conclusions
and stated that the audit report is premature and reflects a lack of understanding of COIN doctrine. We
reject these positions. We conducted the audit early in the program’s implementation so that
opportunities for improvement could be identified and addressed prior to the withdrawal of U.S. and
coalition troops. We conducted our work in accordance with generally accepted government auditing
standards, which require that we obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. We focused our assessment on what DOD and
State reported as the COIN benefits that would be achieved by these projects. We did not try to interpret
COIN doctrine; but rather assessed whether the COIN benefits identified were being achieved or would
be achieved given project delays and the length of time needed to complete projects.

In addition to general comments on our draft report, OSD responded to eight recommendations. OSD
concurred with recommendation 5, partially concurred with recommendations 2, 3, 8, and 9, and did not
concur with recommendations 1, 6, and 7. Despite its concerns, OSD indicated that it saw merit in many
of our recommendations.

OSD did not concur with recommendation 1 to define and identify all infrastructure projects that compose
AIP. OSD stated that it did not concur with this recommendation because, “Additional detailed reporting
as part of AIP would be duplicative and administratively burdensome. Congress did not intend for
creation of the AIP to impose such burdens on the ESF program.” However, as noted in our report, the
legislation authorizing AIP requires the Secretary of Defense, in coordination with the Secretary of State,
to submit to Congress a report regarding implementation of AIP during each fiscal year. The legislation
indicates that the AIP is to be comprised of projects jointly developed by DOD and State. In addition,
State’s primary implementing agency for ESF in Afghanistan is USAID, and USAID concurred with the
recommendation, thus indicating that including the ESF-funded projects that constitute AIP would not be
overly burdensome. Moreover, elsewhere in its comments on our draft report, OSD stated that, “In
congressional briefings supporting the FY11 notification process, DoD, DOS, and USAID identified all
AIP projects-funded by either ESF or AIF-and their relationship to each other.” Given OSD’s statement,
implementing our recommendation should not be overly burdensome. We note that U.S. Embassy Kabul
and USFOR-A also concurred with this recommendation.



SIGAR Audit-12-12 Infrastructure                                                                   Page 17
OSD did not concur with recommendation 6 to clearly indicate the amount of time that infrastructure
projects will take to achieve COIN benefits identified in congressional notifications required by AlP
authorizing legislation. OSD stated that it did not concur with this recommendation because it “does not
recognize that COIN benefits can begin at project inception and increase through project completion.”
However, nearly all of the COIN benefits identified by OSD in the fiscal year 2011 congressional
notification are based on completed projects that are years away from completion. Our report notes that
COIN benefits may accrue prior to project completion. If DOD were to implement this recommendation,
it would identify those benefits to decision makers. We note that U.S. Embassy Kabul, USAID, and
USFOR-A concurred with this recommendation.

OSD did not concur with recommendation 7 to revise AIP guidance and project selection criteria to
ensure that AIP projects have the support of the affected population. OSD stated that it did not concur
with this recommendation because “Current initial guidance already includes the local population and
government in project identification and planning for sustainment. The project approval process includes
consultations with local, provincial, and national Afghanistan government officials who represent the
Afghan population.” Given OSD’s statement, it is unclear why it did not concur with the
recommendation to formalize this requirement.

OSD’s comments, and our responses, are included in appendix IX.




SIGAR Audit-12-12 Infrastructure                                                                 Page 18
APPENDIX I: SCOPE AND METHODOLOGY

This report provides the results of the Office of the Special Inspector General for Afghanistan
Reconstruction’s review of the Afghanistan Infrastructure Program (AIP) and the Afghanistan
Infrastructure Fund (AIF). This report assessed the extent to which (1) AIF-funded projects were
implemented on schedule and achieved planned counterinsurgency effects; (2) ) the Department of
Defense (DOD), the Department of State (State), and the U.S. Agency for International Development
(USAID) addressed project sustainment costs and other sustainment challenges; and (3) agencies
coordinated and jointly managed the AIP. Although the Commander of the U.S. Forces-Afghanistan
(USFOR-A) and the U.S. Ambassador to Afghanistan endorsed the fiscal year 2012 AIF project package
on July 16, 2012, as of February 15, 2012, the project package had not been signed by the Secretary of
Defense and the Secretary of State or notified to Congress. As a result, we limited the scope of the audit
to review the execution, administration, and oversight of the AIP and fiscal year 2011 AIF projects
implemented, being implemented, or planned for implementation as of January 1, 2012. The period of
our review included documents dated between February 2010 and March 2012.

To calculate the amount and purpose of all funds obligated and disbursed, as well as the extent to which
projects are implemented on schedule, we reviewed funding documents and databases, base contracts and
contract modifications, independent government cost estimates, contractor bids, and funds increase
memoranda. To assess the reliability of computer-processed data, we verified that committed, obligated,
and disbursed amounts in project files matched the cost data available in financial databases, and
reviewed fund increase memoranda and other available evidence to identify reasons for cost increases,
and found data to be sufficiently reliable for the purposes of the audit. As part of this effort we
interviewed project managers, purchasing officers, and financial managers to clarify information in
project files, and reviewed all project schedule documents, schedule estimates, and notices to proceed. To
evaluate the extent to which fiscal year 2011 AIF projects contribute to the Afghanistan COIN strategy
and achieve COIN effects, we obtained, analyzed, and compared COIN strategy, the United States
Government Integrated Civilian-Military Campaign Plan for Support to Afghanistan, Afghanistan’s
National Development Strategy, and regional and sector based reports outlining priority issues to project
selection criteria, planned COIN contributions stated in the fiscal year 2011 AIF congressional
notification, and AIF project files, progress reports, and status briefings to ensure selected projects are
clearly linked to national strategic objectives and demonstrate COIN support in accordance with
established COIN guidance. We also met with DOD, State, and USAID officials throughout Afghanistan
to obtain their on-the-ground assessment of how AIF projects positively or negatively affect COIN in
their respective localities.

To assess the extent to which DOD, State, and USAID addressed project sustainment costs and other
sustainment challenges, we reviewed project files to evaluate project sustainment plans, coordination with
Afghan representatives, and efforts to calculate sustainment costs and communicate theses costs to
Afghan government entities. In addition, we held meetings with DOD, State, and USAID officials and
reviewed project files to evaluate project sustainment plans, coordination with Afghan representatives,
and efforts to calculate sustainment costs and communicate these costs to Afghan government entities.

To assess the extent to which DOD and State coordinated and managed project execution, we obtained
and analyzed relevant legislation and congressional reports, U.S. government reports, as well as DOD,
State, and USAID policies and procedures, briefings, working group minutes and notes, e-mail
exchanges, including documentation indicating AIP proposal and approval processes and selection
criteria. In addition, we interviewed DOD, State, USAID, and the Asian Development Bank (ADB)
officials to gain practical understanding of how AIP projects are initially proposed, selected, and
coordinated. To determine the extent to which DOD and State fulfilled legislative requirements related to
congressional reporting requirements for the AIP, we obtained and analyzed relevant legislation to
identify the legislative requirements for AIP implementation. We held meetings with DOD, State, and
USAID officials, as well as congressional staff, to discuss the status of legislative requirements. To
determine the timeliness of and challenges associated with the development and submission of

SIGAR Audit-12-12 Infrastructure                                                                   Page 19
legislatively mandated reports and notifications to inform appropriate congressional committees of a
forthcoming obligation, disbursement, or transfer of funds for AIP projects, we reviewed and analyzed
reports, memoranda, presentations, e-mails and other correspondence used by DOD, State, and USAID
during the planning and development of these reports or notifications to inform appropriate congressional
committees of a forthcoming obligation, disbursement, or transfer of funds for AIP projects.

We assessed internal controls over procedures for the obligation and disbursement of funds through
interviews, site visits, and review of purchase and delivery verifications processes. We also reviewed
project files and interviewed decision makers to assess the transparency and impartiality of the AIF
project selection process.

We conducted work in Washington, D.C., and in Kabul and Kandahar, Afghanistan, from November
2011 to June 2012 in accordance with generally accepted government auditing standards. These
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit objectives. We believe the
evidence obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives. The audit was conducted by the Office of the Special Inspector General for Afghanistan
Reconstruction under the authority of Public Law No. 110‐181, as amended, the Inspector General Act of
1978, and the Inspector General Reform Act of 2008.




SIGAR Audit-12-12 Infrastructure                                                                   Page 20
APPENDIX II: FISCAL YEAR 2011 AND 2012 AFGHANISTAN INFRASTRUCTURE
FUND PROJECT NOMINATION AND APPROVAL PROCESS

No prescribed nomination process existed for fiscal year 2011 Afghanistan Infrastructure Fund (AIF)
projects, however, projects required agreement between the Department of Defense (DOD), Department
of State (State), and the U.S. Agency for International Development (USAID) officials at various levels,
including the Joint Program Committee (JPC), the U.S. Embassy’s Infrastructure Working Group (IWG),
the U.S. Embassy’s Executive working Group (EWG), the Commander of U.S. Forces-Afghanistan
(USFOR-A), and the U.S. Ambassador to Afghanistan, through to the Secretaries of Defense (SECDEF)
and State (SECSTATE). See Figure I for the fiscal year 2011 AIF project nomination and approval
process.

Figure I: Fiscal Year 2011 AIF Project Nomination and Approval Process




Source: SIGAR analysis of DOD, State, USAID data and information.

For fiscal year 2012 projects, however, DOD, State, and USAID formalized the nomination and approval
process and required projects be nominated by the DOD Regional Commands and State Department
Regional Platforms. Approved project lists would then proceed through a process similar to that of fiscal
year 2011.

By May 30, 2011, regional commands and regional platforms nominated 27 projects with a combined
estimated cost of approximately $2.5 billion. Based on these proposals, DOD and State selected the fiscal
year 2012 AIF projects. In fiscal year 2012, the AIF received an appropriation of $400 million, of which
42 percent is planned to be committed to continuing/completing fiscal year 2011 AIF projects. Thus, 52
percent of available fiscal year 2012 funding went for these new projects nominated by regional
commands and regional platforms.



SIGAR Audit-12-12 Infrastructure                                                                  Page 21
APPENDIX III: PLANNED CONTRIBUTION TO COUNTERINSURGENCY
STRATEGY OF FISCAL YEAR 2011 AFGHANISTAN INFRASTRUCTURE FUND
PROJECTS

The authorizing legislation for the Afghanistan Infrastructure Program (AIP) and subsequent
appropriating legislation for the Afghanistan Infrastructure Fund (AIF) require the Secretary of Defense
to notify Congress not less than 30 days before obligating funds for AIF projects. This notification is
required to include a description of how each project supports the counterinsurgency (COIN) strategy in
Afghanistan. Summaries of the planned COIN strategy contributions for fiscal year 2011 AIF projects
provided in the congressional notification are shown in Table I.

Table I: Planned COIN Contributions of Fiscal Year 2011 AIF Projects
Project Title and Description          Planned Contribution to COIN Strategy

Kandahar Bridging Solution             Providing fuel for the generators will enable DABS to provide electricity 24 hours/day in
Fuel, operations, and maintenance      Kandahar City, thereby promoting security and stability, public confidence in the Afghan
                                       Government, economic development, industrial output, and improved quality of life.
                                       Demonstrating the Afghan Government’s capability and capacity to provide basic services
                                       and improve living conditions is expected to further isolate the insurgency from the
                                       population and diminish popular support.

Southeast Power System                 The intended impact of this project is to improve security and stability, to demonstrate the
Transmission lines and substations     Afghan Government’s capability and capacity to meet the needs of the local population,
from Kandahar City to Durai            and to promote economic development in Kandahar and Helmand. This project supports
Junction, and Lashkar Gah to Kajaki    COIN efforts by increasing basic services provided by the Afghan Government in
                                       Kandahar and Helmand in direct contradiction to insurgency propaganda.

Northeast Power System                 This project supports COIN by demonstrating the Afghan Government’s ability to build
Transmission lines and substations     and sustain energy availability for the people of Afghanistan, reinforcing the Afghan
from Chimtala to Ghazni                Government’s legitimacy with its populace by meeting the needs of the local population
                                       thus increasing security and stability. In addition, the project will promote and support
                                       economic development in Wardak and Ghazni.

Northeast Power System                 This project supports COIN by demonstrating the Afghan Government’s ability to build
Transmission lines and substations     and sustain energy availability for the people of Afghanistan, reinforcing the Afghan
from Chimtala to Gardez                Government’s legitimacy with its populace by meeting the needs of the local population
                                       thus increasing security and stability. In addition, the project will promote and support
                                       economic development in Gardez and Paktiya.

Nawa to Lashkar Gah Road               The construction of this roadway—a critical artery in the province for trade and
Pave road from Nawa district center    commerce—will provide safe and secure freedom of movement, thereby promoting
to Helmand provincial capital of       economic development, as well as, agricultural development and market access.
Lashkar Gah

Provincial Justice Centers (PJCs)      Providing a functioning dispute resolution and criminal justice system for major
Infrastructure, equipment,             populations and strategically important centers in Afghanistan will contribute significantly
furnishings, and one-year              to COIN efforts, promoting stability and security throughout Afghanistan. Specifically, the
sustainment package for 5 Provincial   intended impact of the PJCs is to increase access to justice and improve public
Justice Centers                        perception of the Afghan Government’s commitment to rule of law and good governance
                                       by providing a fair and transparent judicial system.
Source: DOD and State Fiscal Year 2011 AIF Congressional Notification, May 20, 2011.




SIGAR Audit-12-12 Infrastructure                                                                                          Page 22
APPENDIX IV: REQUIRED REPORTS AND FISCAL YEAR 2011 CONGRESSIONAL
NOTIFICATION TIMELINE

As shown in table II, the authorizing legislation for the Afghanistan Infrastructure Program (AIP) 47 and
the appropriating legislation for the Afghanistan Infrastructure Fund (AIF) 48 require annual and quarterly
reporting and congressional notification for fiscal year 2011 AIP and AIF projects.

Table II: Required Congressional Notifications and Reports for AIP and AIF
Type         Due                 Includes                              Reference

Project           Not fewer than 30 days       Details of the proposed project, including—       P.L. 111-383
Notification1     before obligating,
                                               (1) A plan for sustainment
                  expending, or
                  transferring AIF funds to    A description of how the project supports the
                  implement a project          COIN strategy

Obligation or     Not fewer than 15 days       Details of the transfer or obligation             P.L. 112-10
Transfer          prior to making transfers
Notification2     to or from, or obligations
                  from the AIF

Quarterly         Not later than 45 days       (1) The use of all funds on a project-by-         P.L. 112-10
Report2           after the end of the             project basis for AIF funds obligated prior
                  fiscal quarter                   to the submission of the report
                                                   Proposed use of appropriated funds on a
                                                   project-by-project basis, for which
                                                   obligation of funds is anticipated during
                                                   the 3-month period

Annual            30 days after the end of     (1) The allocation and use of funds under the     P.L. 111-383
Report1           the fiscal year                  program during the fiscal year
                                               A description of each project for which funds
                                               were expended or transferred during the fiscal
                                               year




The Office of the Secretary of Defense (OSD) and U.S. Central Command (CENTCOM) also attributed
the delay of the fiscal year 2012 AIF Congressional notification to project scope adjustments required
after the Senate Committee on Appropriations reduced fiscal year 2012 AIF funding from the requested
$475 million to $400 million on September 15, 2011. Two months after the funding reduction, U.S.
Forces Afghanistan (USFOR-A) provided OSD and CENTCOM with a revised project list including
scope adjustments for the $400 million funding level. DOD submitted the fiscal year 2012 AIF
notification to Congress on February 24, 2012, as shown in figure II.




47
     P.L. 111-383 §1217.
48
     P.L. 112-10.
SIGAR Audit-12-12 Infrastructure                                                                                Page 23
Figure II: Timeline for Congressional Notification of the Fiscal Year 2012 AIF Project List




Source: SIGAR analysis of DOD, State, and USAID data and information, and applicable legislation.
Notes: RCs/RPs = DOD Regional Commands/State Regional Platforms; JPC = Joint Program Committee; IWG = U.S. Embassy
Kabul’s Infrastructure Working Group; EWG = U.S. Embassy Kabul’s Executive Working Group; JPIO = USFOR-A Joint
Program Integration Office; OIEE = USAID Office of Infrastructure, Energy, and Engineering.




SIGAR Audit-12-12 Infrastructure                                                                           Page 24
APPENDIX V: COMMENTS FROM THE DEPARTMENT OF STATE




SIGAR Audit-12-12 Infrastructure                    Page 25
                                   Now
                                   recommendation
                                   9




SIGAR Audit-12-12 Infrastructure     Page 26
APPENDIX VI: COMMENTS FROM THE U.S. EMBASSY KABUL




SIGAR Audit-12-12 Infrastructure                    Page 27
SIGAR Audit-12-12 Infrastructure   Page 28
SIGAR Audit-12-12 Infrastructure   Page 29
                                   See app. VIII, SIGAR
                                   comment 2.




SIGAR Audit-12-12 Infrastructure          Page 30
                                   Now
                                   recommendation 6


                                   Now
                                   recommendation 7




                                   Now
                                   recommendation 8




                                   Now
                                   recommendation 9




SIGAR Audit-12-12 Infrastructure         Page 31
APPENDIX VII: COMMENTS FROM THE U.S. AGENCY FOR INTERNATIONAL
DEVELOPMENT




SIGAR Audit-12-12 Infrastructure                           Page 32
SIGAR Audit-12-12 Infrastructure   Page 33
SIGAR Audit-12-12 Infrastructure   Page 34
SIGAR Audit-12-12 Infrastructure   Page 35
SIGAR Audit-12-12 Infrastructure   Page 36
                                     See app. VIII, SIGAR
                                     comment 2.




                                   Now
                                   recommendation 6




SIGAR Audit-12-12 Infrastructure         Page 37
                                   Now
                                   recommendation 7




                                   Now
                                   recommendation 8




SIGAR Audit-12-12 Infrastructure         Page 38
SIGAR Audit-12-12 Infrastructure   Page 39
APPENDIX VIII: COMMENTS FROM THE U.S. FORCES AFGHANISTAN




SIGAR Audit-12-12 Infrastructure                           Page 40
SIGAR Audit-12-12 Infrastructure   Page 41
                                   See SIGAR
                                   comment 1.




SIGAR Audit-12-12 Infrastructure    Page 42
SIGAR Audit-12-12 Infrastructure   Page 43
                                     See SIGAR
                                     comment 2.




                                   Now recommendation
                                   6 and 7




                                      See SIGAR
                                      comment 3.




SIGAR Audit-12-12 Infrastructure       Page 44
                                   Now
                                   recommendation 8




                                   See SIGAR
                                   comment 4.




SIGAR Audit-12-12 Infrastructure    Page 45
                                   Now
                                   recommendation 9




SIGAR Audit-12-12 Infrastructure     Page 46
                                   SIGAR Responses to USFOR-A Comments


    1. Although USFOR-A stated that USAID, U.S. Embassy Kabul, and USFOR-A meet on a regular basis
       to coordinate infrastructure projects, USFOR-A did not explain why it did not fully concur with
       our recommendation to define lead and secondary agency roles and responsibilities for the
       implementation of AIP projects. Similarly, USFOR-A stated that working from a single data
       platform, as previously recommended by SIGAR and GAO, would pose numerous logistical and
       information management security challenges, but it did not explain why the U.S. government
       could not overcome those challenges. Moreover, USFOR-A agreed that having access to project
       data would contribute to better project planning, eliminate overlap, and allow agencies to
       leverage each other’s resources more effectively. Requiring the inclusion of AIP project
       information in an existing or developing database would meet the intent of our
       recommendation and should minimize agency burden or costs.

    2.    In commenting on our draft report, USFOR-A disagreed with a recommendation to reassess the
         feasibility of allowing ADB to complete the NEPS project, thus allowing USFOR-A to put the $86
         million in AIF funds to better use. During our fieldwork, we found that ADB had funding
         available and was already designing and preparing to implement the project when it learned,
         unexpectedly, that the U.S. government intended to implement the project. USFOR-A stated
         that the project design was completed and the project was advertised in May 2012. As a result,
         we have deleted the recommendation from our report. However, we note that USFOR-A missed
         an opportunity to allow another donor to continue financing the project, particularly after the
         donor had already completed the design and preparation phase. USFOR-A further noted that
         the ADB did not plan to construct the project for 2 or 3 years after the estimated completion
         date of the AIF-funded project. However, the ongoing delays that USACE has experienced in
         executing the project, combined with a new phased acquisition strategy consisting of a base
         contract-plus options, may result in further delayed execution timeframes and increased costs.
         Given AIF project delays, it is uncertain whether the ADB project would have been completed 2
         or 3 years later. In deciding to fund this project, the U.S. government missed an opportunity to
         put to better use the $86 million committed to the execution of the Dast-i-Barchi to Gardez line.

    3. In commenting on recommendations 6 and 7, USFOR-A made general statements about its
       perception of COIN benefits but did not challenge our recommendations, state why it did not
       fully concur with them, or outline steps and timeframes for implementation.

    4. USFOR-A partially concurred with recommendation 9 and stated that doing so was “the
       responsibility of GIRoA and not the JPIO.” We disagree with this position and note that
       appropriating legislation requires all AIF projects to have a sustainment plan and for the
       sustainment plan to be included in congressional notifications. Further, we note that while
       USFOR-A and State provided required sustainment plans to Congress, those plans were
       inadequate for a variety of reasons stated in the report.




SIGAR Audit-12-12 Infrastructure                                                                  Page 47
APPENDIX IX: COMMENTS FROM THE OFFICE OF THE SECRETARY OF
DEFENSE




SIGAR Audit-12-12 Infrastructure                            Page 48
SIGAR Audit-12-12 Infrastructure   Page 49
                                   See SIGAR
                                   comment 1.




                                   See SIGAR
                                   comment 2.



                                   See SIGAR
                                   comment 3.




SIGAR Audit-12-12 Infrastructure    Page 50
                                   See SIGAR
                                   comment 4.




                                   See SIGAR
                                   comment 5.




                                   See SIGAR
                                   comment 6.




                                   See SIGAR
                                   comment 7.




SIGAR Audit-12-12 Infrastructure   Page 51
                                     See SIGAR
                                     comment 8.




SIGAR Audit-12-12 Infrastructure   Page 52
                                   Now
                                   recommendation 6




                                    Now
                                    recommendation 7




                                    Now
                                    recommendation 8




SIGAR Audit-12-12 Infrastructure     Page 53
                                   Now
                                   recommendation 9




                                    See SIGAR
                                    comment 9.




                                    See SIGAR
                                    comment 10.




SIGAR Audit-12-12 Infrastructure      Page 54
                                   See SIGAR
                                   comment 11.




                                   See SIGAR
                                   comment 12.




                                   See SIGAR
                                   comment 13.




                                    See SIGAR
                                    comment 6.




SIGAR Audit-12-12 Infrastructure      Page 55
                                   See SIGAR
                                   comment 5.




                                   See SIGAR
                                   comment 14.




                                   See SIGAR
                                   comment 15.




                                   See SIGAR
                                   comment 16.




                                   See SIGAR
                                   comment 17.




SIGAR Audit-12-12 Infrastructure      Page 56
SIGAR Audit-12-12 Infrastructure   Page 57
                                   SIGAR Responses to OSD Comments

    1. We conducted this audit early in the program’s implementation so that any problems or
       opportunities for improvement could be identified and addressed prior to the withdrawal of U.S.
       and coalition troops. We also focused our assessment on what DOD and State reported as the
       COIN benefits that would be achieved by these projects. We did not try to interpret COIN
       doctrine, but rather assessed whether the COIN benefits they identified were being achieved or
       would be achieved given project delays and the length of time needed to complete projects.

    2. Although Congress did not authorize or appropriate funds for the Afghanistan Infrastructure
       Program until fiscal year 2011, OSD requested the $400 million in fiscal year 2011 AIF funding in
       November 2010; DOD notified Congress of its spend plan in May 2011; and DOD received that
       appropriation on April 15, 2011—7 months before the initiation of this audit. Furthermore, we
       specifically designed this audit to occur during the first year of the program, so that any
       problems or opportunities for improvement could be identified and addressed early. We
       believe this approach can be useful because it helps agencies make necessary course corrections
       during program implementation, rather than after programs have neared completion.

    3. We disagree. The findings presented in the report provide sufficient, relevant, and reliable
       evidence that raise serious concerns about project execution delays and the sustainability of
       fiscal year 2011 AIF projects.

    4.    OSD states, “Under the program, DoS and USAID must identify ESF-funded AIP projects before
         DOD approves AIF projects and provides notification to Congress. In congressional briefings
         supporting the FY11 notification process, DOD, DoS, and USAID identified all AIP projects-funded
         by either ESF or AI F-and their relationship to each other.” However, OSD did not provide SIGAR
         with a final list of ESF-funded projects supporting AIP. Further, these projects were not included
         in either the congressional notification for fiscal year 2011 AIP projects or the annual report
         issued by DOD on the implementation of the AIP. Notably, U.S. Embassy Kabul, USAID, and
         USFOR-A all concurred with our first recommendation that agencies should define and identify
         all infrastructure projects that compose AIP, including projects funded by AIF and ESF, and
         include this information in required congressional reports.

    5. We agree that the project execution schedules were estimated, as reflected in the title of figure
       1, “Fiscal Year 2011 AIF Estimated Project Execution Schedules.” We also agree, as stated in our
       draft report, that acquisition and funding delays postponed project execution schedules and
       that security concerns contributed to the acquisition delays.

    6. Our findings regarding delayed COIN benefits are based on an assessment of the specific
       contributions to the COIN strategy that DOD identified in its fiscal year 2011 AIF congressional
       notification (reproduced in appendix III of this report). Most of these stated benefits depend on
       completed projects, which in most cases are years away. For example, the notification states
       that the northeast power system project “supports COIN by demonstrating the Afghan
       Government’s ability to build and sustain energy availability for the people of Afghanistan…”

SIGAR Audit-12-12 Infrastructure                                                                   Page 58
        Because this project has experienced significant delays and the Afghan government has not yet
        been able to demonstrate an ability to build and sustain energy availability for the people of
        Afghanistan, the COIN benefits identified in the Congressional notification have not yet been
        achieved. If there are additional COIN benefits as a result of these projects, as suggested in
        OSD’s comments, those benefits should be included in AIF congressional notifications.

        We agree that there may be some interim COIN benefits associated with fiscal year 2011 AIF
        projects, and the draft report acknowledges that progress in project execution may result in
        COIN benefits and a desire for future services. However, as noted in the report, that desire may
        create an expectations gap if AIF funding is cut or replacement sources for future services are
        not available. The draft report also acknowledged that some degree of COIN benefits may occur
        if implementing agencies are able to ensure that contractors employ local laborers. However,
        given the ongoing delays in executing most AIF projects, it remains unclear if contracts will
        contain such requirements.

    7. Our report states that the sustainment of some fiscal year 2011 AIF projects relies on
       unidentified or unfunded projects with completion dates beyond 2014. Specifically, the success
       and viability of three projects, including the two SEPS projects and the Kandahar Bridging
       Solution, rely on (1) a three-turbine-strong Kajaki Dam, and (2) a yet-to-be determined second
       power source. The draft report acknowledges the immediate COIN benefits of the Bridging
       Solution. As acknowledged by OSD, however, this project relies on unidentified or unfunded
       projects with completion dates beyond 2014.

    8. We specifically requested an exit conference with OSD officials on April 25, 2012, to discuss our
       preliminary findings and draft recommendations, but they did not respond to that request. We
       provided a draft report to OSD, along with various other agencies, on May 25, 2012, requesting
       formal and technical comments by June 14, 2012. On June 21, 2012, OSD provided draft
       comments on the report and, at OSD’s request, we went to their offices at the Pentagon to
       discuss these comments. On July 11, 2012, the Special Inspector General went to the Pentagon
       and met with a senior OSD official, again to request OSD’s formal comments on the report. At
       that time, OSD submitted a revised draft of its comments but did not submit final signed
       comments until July 13, 2012.

    9. The statement was revised for clarity.

    10. We maintain that there is a clear distinction between AIF and AIP. AIF is one funding
        component of AIP, the other being ESF. As stated in the report, “Congress intended AIP to be a
        whole-of-government approach in support of the COIN strategy to meet fundamental, shared
        objectives in infrastructure and development. Congress expected both DOD and State to
        commit resources to AIP”. OSD’s comment clouds the distinction between AIP and AIF.

    11. In their fiscal year 2012 Congressional Budget Justification, State and USAID requested ESF
        funding specifically for AIP. However, neither their fiscal year 2012 Congressional Budget
        Justification, the accompanying Executive Budget Summary, nor congressional notifications and

SIGAR Audit-12-12 Infrastructure                                                                 Page 59
        reports for AIP identified ESF-funded projects supporting AIP or specified the amount of ESF
        funds that State and USAID planned to use to support AIP projects. We obtained draft
        documents that identified some ESF-funded projects and indicated that they may support AIP,
        but we were unable to obtain a final list of ESF-funded projects supporting AIP. Given OSD’s
        comments pertaining to ESF-funded projects being incorporated in multiple formal documents,
        we would expect OSD to concur with and implement our recommendation to “define and
        identify all infrastructure projects that compose AIP, including projects funded by AIF and ESF
        and include this information in required congressional report s as part of AIP. This notification
        should illustrate the interrelationship of infrastructure projects.”

    12. As noted in the report, “AIF guidance states that once DOD, State, and USAID identify project
        components and assign a lead implementing agency, the lead agency should form a JPDT to
        ensure joint project management, create transparency and accountability, and enable joint
        decision making.” However, we found that, in practice, these teams do not jointly implement
        AIF projects and agencies tend to use JPDTs, in one form or another, for large-scale, complex
        energy sector projects. Consistent with the guidance, both DOD and State/USAID should strive
        to replicate the type of joint implementation that we identified in the report as a model of
        effective collaboration.

    13. As a general rule, and in accordance with standard practice, we do not list the names or
        personally identifiable information of agency officials with whom we meet because doing so
        may hinder frank discussions of key issues. Our statement is based on interviews with senior
        officials with purview and responsibility for AIP/AIF in Washington, D.C., and in Kabul, Kandahar,
        and Helmand, Afghanistan.

    14. The draft report notes that agencies produced sustainment plans, as required, but that the
        sustainment plans were broad and inadequate. DOD and State neither adequately defined
        project sustainment costs, nor communicated sustainment costs to the Afghan government.
        Although some sustainment cost estimates were calculated, there were problems with those
        estimates. Congress voiced concern with the sustainment plans, and we propose a draft
        recommendation for improvement.

    15. We do not state or imply in our report that project plans have been endorsed. Rather, our
        report states that there is ongoing planning to use AIF to fund the development of a second
        sustainable power source for Afghanistan’s south, should USAID not complete the NEPS to SEPS
        connection with ESF funds. We believe this is valuable information for the Congress.

    16. As indicated in the report, DOD, in conjunction with State had not provided Congress with
        required reports as of February 15, 2012. Further, although the appropriations act for fiscal year
        2012 does not include a requirement for AIF quarterly reports, the appropriations act for fiscal
        year 2011 does and, since 2011 AIF funds are still being used, that requirement remains in effect
        for those funds.




SIGAR Audit-12-12 Infrastructure                                                                  Page 60
    17. We disagree and remain deeply concerned that the success and viability of key AIF projects
        hinge, in part, on unidentified, unfunded infrastructure projects and the successful, timely
        completion of other projects that the U.S. government has been unable to complete for more
        than 7 years. Our statement is based on sufficient, relevant, and reliable evidence that raise
        serious concerns about project execution delays and challenges, sustainability, and viability of
        fiscal year 2011 AIF projects.




SIGAR Audit-12-12 Infrastructure                                                                   Page 61
SIGAR’s Mission               The mission of the Special Inspector General for Afghanistan
                              Reconstruction (SIGAR) is to enhance oversight of programs for
                              the reconstruction of Afghanistan by conducting independent
                              and objective audits, inspections, and investigations on the use
                              of taxpayer dollars and related funds. SIGAR works to provide
                              accurate and balanced information, evaluations, analysis, and
                              recommendations to help the U.S. Congress, U.S. agencies, and
                              other decision-makers to make informed oversight, policy, and
                              funding decisions to:

                                  •   improve effectiveness of the overall reconstruction
                                      strategy and its component programs;
                                  •   improve management and accountability over funds
                                      administered by U.S. and Afghan agencies and their
                                      contractors;
                                  •   improve contracting and contract management
                                      processes;
                                  •   prevent fraud, waste, and abuse; and
                                  •   advance U.S. interests in reconstructing Afghanistan.


Obtaining Copies of SIGAR     To obtain copies of SIGAR documents at no cost, go to
Reports and Testimonies       SIGAR’s Web site (www.sigar.mil). SIGAR posts all publically
                              released reports, testimonies, and correspondence on its Web
                              site.


To Report Fraud, Waste, and   To help prevent fraud, waste, and abuse by reporting allegations
Abuse in Afghanistan          of fraud, waste, abuse, mismanagement, and reprisal contact
Reconstruction Programs       SIGAR’s hotline:

                                  •   Web: www.sigar.mil/fraud
                                  •   Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                  •   Phone Afghanistan: +93 (0) 700-10-7300
                                  •   Phone DSN Afghanistan 318-3912 ext. 7303
                                  •   Phone International: +1-866-329-8893
                                  •   Phone DSN International: 312-664-0378
                                  •   U.S. fax: +1-703-601-4065


Public Affairs                Public Affairs Officer

                                  •   Phone: 703-545-5974
                                  •   Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                  •   Mail: SIGAR Public Affairs
                                      2530 Crystal Drive
                                      Arlington, VA 22202
